                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM


                                                                                   11           Page 1 of 1



         Our office received an allegation of plagiarism in two proposals' submitted to NSF. Our inquiry
         determined that the allegation was substantive2, and we referred the matter to the university. The
         university convened an inquiry that confirmed that material from multiple sources were copied into
         the proposals. The university'determined that the PI, who was a tenured faculty member, was not
         responsible for the copied text. Instead, the author was a foreign visiting scientist (the subject13and
         a colleague of the PI. The university determined it had no jurisdiction over the subject. Therefore,
         the university decided not to conduct an investigation and returned the matter to our office.

         As a part of our investigative review, we uncovered additional plagiarism in a third proposal4 the
         subject authored. The subject's response to our questions regarding the copied texts was insufficient
         to dispel the allegation. Therefore we concluded that the subject committed plagiarism. We
         forwarded the matter to the office of the Deputy Director with a recommendation that NSF make a
         finding of Research Misconduct. This memo with the attached letter from the Deputy Director and
         the attached Report of Investigation constitute the closeout for this case.

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
        National Science Foundation
          Office of Inspector General




                         Confidential
                     Investigation Report
                   Case Number A03050028

                          July 20, 2005


CONFIDENTIAL

NSF OIG FORM 228 (1103)
                                                       Summary

The Office of Inspector General (OIG) has concluded that the Subject committed plagiarism in a
funded proposal submitted to the National Science Foundation (NSF) through a U.S.
collaborator.' The awardee institution conducted an inquiry but declined to conduct an
investigation on the grounds that the Subject was not an employee of the institution. Our
independent investigation documented a pattern of plagiarism extending to three NSF proposals.

We recommend that NSF take the following actions as a final disposition in this case:

      1. Issue a letter of reprimand informing the Subject that NSF has made a finding of research
         misconduct against him.
      2. For a period of 3 years, prohibit the Subject from serving as an NSF reviewer, advisor, or
         consultant.
      3. For a period of 3 years, debar the Subject from participation in Federal programs.

                                                    OIG's Inquiry

We reviewed an allegation that two NSF proposals (Proposal-1 and ~ r o ~ o s a l - 2were
                                                                                    3)
plagiarized from published sources. Our review of Proposal-1 identified approximately 135 lines
drawn from six sources without attribution and di~tinction.~Our review of Proposal-2 identified
approximately 41 lines drawn from four sources without attribution and di~tinction.~   Both
proposals resulted in awards to University-1 .6

We wrote to the Principal Investigator (PI) requesting his perspective on the allegations.7 The PI
responded that his foreign collaborator (the Subject) was the author of both proposals:

           I wish to state at the outset that both proposals were written by [the Subject]. When I
           signed the proposals, after reviewing them and making some minor corrections, I was not
           aware of, nor did I have any reason to suspect, any irregularity. Also, I had no personal
           interest, professional or financial, in the success of those proposals; the ensuing funding
           benefited almost exclusively [the Subject] and his institution in Egypt. I agreed to
           participate only to help a young person, who I thought was in a disadvantaged position




    Proposal-1 and alleged sources, with identical text highlighted and cross-referenced, are at Tab 1.
    Proposal-2 and alleged sources, with identical text highlighted and cross-referenced, are at Tab 2.
6
7
    Our letter to the PI is at Tab 3.
         because of the country where he worked, to obtain access to funds to advance his
         research.[*]

The PI explained that the Subject, a former Ph.D. student at University-1, approached him about
developing an NSF proposal (Proposal-1) which would allow the Subject to return to University-
 1 as a visiting researcher. The PI agreed on condition that the Subject write the proposal. The PI
also described the history of Proposal-2 in detail and stated that this proposal was developed by
the ~ u b j e c t . ~

The PI immediately brought the allegations to the attention of University- 1, which froze spending
on the open award (Proposal-2) and initiated an inquiry. After University-1 notified us of its
inquiry, we formally referred the matter to University-1 and deferred further action pending
completion of the inquiry."

                                             The University's Inquiry

The Vice Provost for Research (VPR) conducted the inquiry and provided us with a copy of the
Inquiry ~ e ~ o r t .According
                     "         to the Report, the VPR examined the proposals, the alleged source
documents, copies of e-mail correspondence between the PI and the Subject, and grant records.
The VPR also interviewed the PI, but did not contact the Subject. Based on the evidence, the
VPR observed that:

         A simple side-by-side comparison of the text of each of the proposals with the "alleged
         source documents" provided by NSF leads to a clear finding that significant proportions
         of the proposals were copied directly from the source documents, either verbatim or with
         minor editorial changes that leave large portions of the copied materials intact. The
         probability of the same words being used in both the source documents and the proposals
         is vanishingly small; it is inconceivable that the similarities happened by coincidence.[12'

The VPR concluded that the PI was not responsible for copying text into the proposals, and
recommended that the matter be returned to OIG for any further investigation.I3 As the VPR
explained to us:

         any further action with regard to [the Subject] is logically a matter for NSF to address
         rather than [the University], since we have no relationship to him . . . In practical fact,
         there is really no way for us to conduct an investigation into this [sic] actions in respect to
         the subject proposals.['41

University-1 subsequently closed the open award and took no further action.


8
   Tab 4, p. 1.
9
   Tab 4, p. 2.
'O OIG's referral letter to University-1 is at Tab 5.
II
    University-] 's Inquiry Report is at Tab 7.
l 2 Tab 7, p. 3.
13
    Tab 7, p. 4.
l 4 Tab 6.
                                                OIG's Investigation

Upon receipt of the Inquiry Report, we reviewed the evidence supporting University-1 's
conclusion that the PI did not write the relevant sections of the proposals. Our analysis supported
the PI'S assertion that he did not write the proposals. Accordingly, we notified the PI that the
matter was closed with respect to his inv~lvement.'~

Because the Subject was employed by a foreign institution, we did not refer the matter to his
institution but rather conducted our own independent investigation. We first contacted the
Subject by e-mail and requested his address for delivery of a package.'6 ~e responded
immediately and provided his address. We then notified the Subject by Federal Express of the
initiation of our investigation, provided him with annotated copies of the two proposals and
alleged sources, and asked him to respond to certain questions about the proposals and his use of
s o ~ r c e s . 'We
                 ~ requested his response by April 30,2004.

The package was successfully delivered to the address specified by the Subject and signed for on
April 15,2004, seven days after our last e-mail contact with the subject.18 On April 28, we sent
the Subject a reminder using the same e-mail address as before. On May 7, we sent a second
reminder. On May 17, we sent a third reminder and informed the Subject that if we received no
response by May 21, we would have to proceed without the benefit of his perspective. On
September 2, we sent the Subject a fourth reminder using both his personal and work e-mail
addresses. The Subject did not reply to our letter or our e-mails.

In the course of our investigation, we reviewed evidence bearing on the authorship of the
proposals, including e-mail correspondence provided by the PI and the publication records of the
PI and the Subject. We also considered NSF's jurisdiction in this matter and whether the alleged
acts fell within the scope of NSF's Research Misconduct regulation.



The PI stated that the Subject wrote Proposal-1. Our review supported the PI'S account: the
relevant sections of the proposal are related to the Subject's research area, the budget request is
solely for support of the Subject, and no other project personnel are mentioned. Finally, in his
responses to a message from the PI conveying the allegations, the Subject accepts responsibility
for the allegedly copied text in both proposals:

         If there is any text copied it might be used as part of the research survey and for sure was
         cited . . . I am willing to carry the responsibilties but it might be un-intentioned mistake
         although I beleive that all the proposed ideas and the developed results are new new new.
         I am sorry for all that.[lgl


l5  Tab 8.
16
    OIG's e-mail correspondence with the Subject is at Tab 9.
17
    OIG's investigation letter to the Subject is at Tab 10.
18
    The Federal Express delivery confirmation is at Tab 1 1.
l 9 A copy of this message is included in the PI'S response to our initial letter, at Tab 4 (final page). This excerpt is
reproduced exactly as written, with no corrections.
                                                                                                                            3
        It seems I have a diflferent way (or we, the egypt sie) of dealing with such a details but
        we learn from such things. I will make sure that in the future I will not go to such a
        mistake, as US believe, again. Finally, I am sorry for what happen and I promise you and
        myself that this will not happen again. This was a lesson for me.[201

Our review of NSF records showed that Proposal-1 was submitted directly to NSF by University-
1. We concluded that Proposal-1 was written specifically for submission to NSF, that the
Subject was the author of the proposal, and that the Subject was solely responsible for copying
135 lines of text from published sources into the proposal without attribution and distinction.



With regards to Proposal-2, our review supported the PI'S assertion that the Subject was its
author. However, NSF records show that Proposal-2 was originally submitted to the U.S.-Egypt
Joint Board on Scientific and Technological Cooperation (the Joint Board) under a competitive
grant program coordinated by the U.S. Department of ~ t a t e . ~NSF
                                                                  ' is one of several agencies
that participate in this program. After the Joint Board recommended the proposal for
consideration by NSF, it was submitted to NSF through University-1 .

When the Subject and the PI submitted Proposal-2 to program administrators in Egypt, they did
so under Joint Board guidelines. Joint Board guidelines in effect at the time contained no
guidance on scholarly standards for proposals. Accordingly, we believe Proposal-2 should be
considered as evidence of a pattern of behavior rather than as an independent incident of research
misconduct.

                                               OIG's Assessment

NSFYsResearch Misconduct regulation was revised effective April 17, 2002. The allegations in
this case involve activity that took place prior to April 17,2002. For that reason, OIG, in
agreement with IVSF, applies the definition of research misconduct in effect at that time:

         Fabrication, falsification, plagiarism, or other serious deviation from accepted practices in
         proposing, carrying out, or reporting results from activities funded by NSF [221

For all other purposes, the current version of the Research Misconduct regulation is applicable.

A finding of research misconduct by NSF requires that (1) there be a significant departure from
accepted practices of the relevant research community, that (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
preponderance of the evidence.23

20  This message is cited in University-1 's Inquiry Report at Tab 7, pp. 3-4. This excerpt is reproduced exactly as
written, with no corrections.
2 ' The U.S.-Egypt proposal cover page is found directly behind the NSF cover page for Proposal-2, at Tab 2. The
U.S.-Egypt program announcement, dated August 2000, is at Tab 12. All indications are that the 1999 program
announcement was substantially similar in all respects relevant to the present case.
22 45 C.F.R. 8 689.1 (2001).
23 45 C.F.R. §689.2(c) (2002).
                                                       The Act

Proposal-1 contains 135 lines of text that are identical or substantially similar to publications by
others. None of this text is distinguished from the rest of the proposal by the use of quotation
marks or indentation. Our investigation concluded that the Subject was the author of the
proposal and was responsible for copying this text.

Copying or closely paraphrasing text original to another author without attribution and
distinction is an act of plagiarism. The version of NSF7sGrant Proposal Guide in effect at the
time clearly states:

        NSF expects strict adherence to the rules of proper scholarship and attribution. The
        responsibility for proper attribution and citation rests with authors of a research proposal;
        all parts of the proposal should be prepared with equal care for this concern. Serious
        failure to adhere to such standards can result in findings of misconduct in science. NSF
        policies and rules on Misconduct in Science and Engineering are discussed in GPM
        Section 9 3 0 . I ~ ~ ~

Copying 135 lines of text from the writings of others, without attribution and distinction,
constitutes a serious failure to adhere to the standards of proper scholarship. As such, it is a
significant departure from accepted practices in the research community.

                                                        Intent

We do not have the benefit of the Subject's explanation for his behavior. University-1 did not
interview him, and he has not replied to our requests for information. However, he replied to a
message from the PI conveying the allegations.25 In his reply, the Subject wrote:

         I am dead sure that the technical merit in our two proposals are new. There is no way that
         I copied an idea or borrowed any idea from any one. If there is any text copied it might
         be used as part of the research survey and for sure was cited . . . I am willing to carry the
         responsibilties but it might be un-intentioned mistake although I beleive that all the
         proposed ideas and the developed results are new new new. I am sorry for all that.[261

The failure to cite and distinguish 135 lines of copied text cannot be characterized as an
unintentional mistake. First, the act of copying text from a source into a proposal is inherently a
knowing activity.27 Second, we note that the Subject conducted his doctoral studies at
University-1 and since that time has spent additional time in the U.S. conducting research. It is
reasonable to conclude that the Subject was aware that his actions were not accepted practice and
that his actions were done knowingly.



24
   NSF 99-2, section I.A.
25
   The Subject's e-mail to the PI is included in the PI'S letter to OIG, at Tab 4.
26
   Tab 4, final page. This excerpt is reproduced exactly as written, with no corrections.
27
   OIG Semiannual Report to Congress, September 1993.
                                                 Standard o f Proof

We conclude that a preponderance of the evidence shows that the Subject committed research
misconduct when he prepared an NSF proposal by copying text from publications by others
without providing proper attribution to the original authors, and persuaded a U.S. PI to submit
the proposal to NSF.

                                       OIG's Recommended Disposition

In deciding what actions are appropriate when research misconduct is found, NSF must consider
several factors. These factors include how serious the misconduct was; the degree to which the
misconduct was knowing, intentional, or reckless; whether it was an isolated event or part of a
pattern; whether it had significant impact on the research record, research subjects, other
researchers, institutions or the public welfare; and other relevant circumstance^.^^

                                                     Seriousness

We believe the Subject's misconduct was very serious. The amount of copied text in Proposal-1
is substantial (135 lines), and the severity of the Subject's misconduct is elevated because his
proposal resulted in a $20,000 award. The award hnded the Subject's roundtrip travel to the
U.S. and provided him with a $13,600 stipend as well as a personal computer, books, and
registration fees for two conferences.29

                                                Pattern of Behavior

The Subject's behavior was not an isolated event. Our investigation established that the Subject
appropriated the writings of others and incorporated them into two subsequent proposals, namely
Proposal-2 and ~ro~osal-3.30   These proposals were submitted to NSF after first being submitted
to the Joint Board. Proposal-2 has already been discussed; Proposal-3 was the focus of a
previous investigation involving the ~ u b j e c t . ~ '

With regards to Proposal-2, our review supported the PI'S assertion that the Subject was the
author of the proposal. Specifically, the relevant sections of the proposal concern the Subject's
research area. According to the Final Project Report for Proposal-1, the Subject developed
Proposal-2 during a visit to university-1 .32 Finally, the Subject's messages to the PI indicate that
the Subject accepted responsibility for the allegedly copied text in both Proposal-1 and Proposal-
2. We concluded that the Subject was the author of Proposal-2 and that he was solely
responsible for copying 41 lines of text from published sources into Proposal-2 without
attribution and distinction.

28   45 C.F.R. §689.3(b) (2002).
29   Universitv-1's sumrnarv of emenditures under the award is at Tab 14.



;?h
32   The Final Project Report for Proposal-1 is at Tab 13.
Proposal-3 came to our attention in a previous investigation involving the Subject. That case was
opened in response to an allegation of plagiarism in Proposal-3, submitted to NSF by a faculty
member (PI-2) at ~ n i v e r s i t ~ - 2Specifically,
                                         .~~          it was alleged that five paragraphs of the proposal
were copied without attribution and distinction from a journal article by another author.

As part of our inquiry we wrote to PI-2, who identified the Subject as the author of the technical
sections of the proposal.34 We then wrote to the Subject asking him about his role in the
proposal and other standard questions concerning his use of sources.35 In his reply, the Subject
acknowledged that the source text was not properly cited.36 he Subject conveyed his awareness
of scholarly standards and characterized his failure to cite and distinguish the copied text as an
unintentional mistake:

         I, Dr. [Subject], have had a chance to study in the USA where I received my PhD. I used
         to respect the rules and regulation for copyright format. I never intended to break these
         rules. If any mistake happened it is for sure Not on purpose, with any means.[371

Our subsequent review identified additional unattributed text in Proposal-3, for a total of
approximately 130 lines of text copied from seven sources.38 We concluded that the allegation of
plagiarism was substantiated and that the Subject was responsible.

We determined that Proposal-3 was submitted by the Subject and PI-2 to the Joint Board and
subsequently to NSF. Because this proposal was submitted to the Joint Board and then to NSF,
we decided not to pursue fixther action at that time. We notified the Subject of the conclusion of
our investigation and informed him that we might use the results of our investigation as evidence
in a hture case.39 We invited his comments or rebuttal, but received no response to our letter.

                                                       Impact

This case does not involve an impact on the research record or on research subjects. However,
the Subject's actions have adversely affected other researchers. The Subject abused the trust of
two NSF PIS when he asked them to serve as PIS on his plagiarized proposals. As a result of the
Subject's actions, PI-1 became the focus of a lengthy university inquiry.




34 OIG's letter to PI-2 is at Tab 16. PI-2's response is at Tab 17
35 OIG's letter to the Subject is at Tab 18.
36 The Subject's response is at Tab 19.
37
   Tab 19, p. 2. This excerpt is reproduced exactly as written, with no corrections.
   Proposal-3 and alleged sources, with identical text highlighted and cross-referenced, are at Tab 15.
39
   OIG's letter to the Subject notifying him of the conclusion of our investigation is at Tab 20.
                                         Other Relevant Circumstances

The Subject has been highly successf?ul in his attempts to secure Federal funding, and we believe
he poses a special risk to the ~ o v e r n r n e n t .The
                                                       ~ ~ Subject is not employed by a U.S. institution,
and is not subject to actions or oversight by NSF awardee instit~tions.~'

The Subject has not cooperated with our investigation, and we have no evidence that he has
changed his behavior. He has continued to pursue Federal hnding through the Joint ~ o a r dand
                                                                                             ~~,
he may pursue other Federal programs that support international collaborations. We believe that
government-wide debarment of the Subject is necessary to protect the integrity of Federal
programs.

                                                Recommendations

Consistent with the need to protect the interests of the Government, we recommend that NSF
take the following actions as a final disposition in this case:

     1. Issue a letter of reprimand informing the Subject that NSF has made a finding of research
        misconduct against him.43
     2. For a period of 3 years, prohibit the Subject from serving as an NSF reviewer, advisor, or
        consultant.44
     3. For a period of 3 years, debar the subject from participation in Federal programs.45

                                               Subiect's Response

We sent our draft Report of Investigation to the Subject on May 2,2005, and requested that he
send us any comments by June 8. After requesting and receiving an extension of time, the
Subject formally responded to our draft Report on June 1 6 , 2 0 0 5 . ~In~ his response, the Subject
expressed respect for NSF and regret for his actions. He stated that he received no instruction
concerning plagiarism as a student, and that he was unaware of the concept of plagiarism until
his first interaction with our office. The Subject's response did not lead us to modify our draft
Report.




40
    We are aware of four NSF proposals involving the Subject, three of which resulted in awards. Three of the
proposals are discussed in this Report. The fourth proposal is.-
41
    University-1's decision not to investigate or take an action against the Subject is a case in point.
4 2 The Subject is currently supported under &  ,              based on a proposal submitted to the Joint Board with a
PI at yet another U.S. university.
43 A letter of reprimand is a Group I action.
44
    Prohibition from serving as a reviewer, advisor, or consultant is a Group I11 action.
45
    Debarment of an individual is a Group I11 action.
46
    The Subject's response to our draft Report is at Tab 21.
                 ,
    .
        t.
                                         NATIONALSCIENCEFOUNDATION
n                                            4201 WILSON BOULEVARD
                                            ARLINGTON, VIRGINIA 22230




              OFFICE OF THE
             DEPUTY DIRECTOR




                                                                        JAN 2 4 2006




                 Re:     Notice of Proposed Debarment and Notice of Misconduct in Science
                         Determination

        Dear ~ r . l l )




                                                                                                            .   .
        prepared by NSF's Office of Inspector General ("OIG"), your proposal contained plagiarized
        text.
        In light of your misconduct, this letter serves as formal notice that the National Science
        Foundation ("NSF") is proposing to debar you from directly or indirectly obtaining the benefits
        of Federal grants for a period of two years. During your period of debarment, you will be
        precluded from receiving Federal financial and non-financial assistance and benefits under non-
        procurement Federal programs and activities. See 45 CFR Part 620, Subparts A, B and I. In
        addition, you will be prohibited from receiving any Federal contracts or approved subcontracts
        under the Federal Acquisition Regulations ("FAR"). See 45 CFR 620.125. During your
        debarment period, you also will be barred from having supervisory responsibility, primary
        management, substantive control over, or critical influence on, a grant, contract, or cooperative
        agreement with any agency of the Executive Branch of the Federal Government. See 45 CFR
        620.115.
        In addition to proposing your debarment, I am prohibiting you from serving as an NSF reviewer,
        advisor, or consultant until January 1,2008. Lastly, you must complete an ethics training course
        on plagiarism, and certify in writing to the OIG that you have done so, before you will be
        permitted to submit any further grant proposals for Federal funding.
                                                                                              Page 2


  ScientificMisconduct and Sanctions other than Debarment                  .   .

  Under NSFYsregulations in effect in 1999,' "research misconduct" was defined as "fabrication,
  falsification, plagiarism, or other serious deviation from accepted practices in proposing, carrying
  out, or reporting results from activities funded by NSF." A finding of research misconduct
  requires that:
          (1) There be a significant departure from accepted practices of the relevant research
              community; and
          (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
              and
                d@@~he ,sf;,, allegation be proven by a preponderance of the evidence.
~$...#+....#$~'*:'

  45 CFR 9 689.2(c).


  Your proposal contains verbatim and paraphrased text from other source docurnents. By
  submitting a proposal to NSF that copies the ideas or words of another without adequate.
  attribution, as described in the OIG Investigative Report, you misrepresented someone else's
 'work as your own. In addition, you failed to properly acknowledge or credit the authors of the
  source documents in your proposal. Your conduct unquestionably constitutes plagiarism. I
  therefore conclude that your actions meet the applicable definition of "research misconduct" set
  forth in NSF's regulations.


  Pursuant to NSF regulations, the Foundation must also determine whether to make afinding of
  misconduct based on a preponderance of the evidence. 45 CFR 5 689.2(c). After reviewing the
  Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
  plagiarism was knowing and constituted a significant departure from accepted practices of the
  relevant research community. I am, therefore, issuing a finding of research misconduct against
  you.


  NSF's regulations establish three categories of actions (Group I, IT, and ID) that can be taken in
  response to a finding of misconduct. 45 CFR 689.3(a). Group I actions include issuing a letter
  of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
  that an institution or individual obtain special prior approval of particular activities from NSF;
  and requiring that an institutional representative certify as to the accuracy of reports or

    In 2002, NSF amended its regulations on research misconduct. Because the proposal at issue
  was submitted to NSF in 1999, however, NSF's research misconduct regulations in effect at that
  time govern.
                                                                                              Page 3
certifications of compliance with particular requirements. 45 CFR $ 689.3(a)(l). Group 11
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for funding; and requiring correction to the research record.
45 CFR §689.3(a)(2). Group JII actions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
suspension from participation in NSF programs. 45 CFR 5 689.3(a)(3).


In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; our determination that it was knowing; the determination that
it was part of a pattern of misconduct; and your failure to cooperate during the investigative
process. I have also considered other relevant circumstances. 45 CFX § 689.3(b).


I find your plagiarism to be serious because the amount of text that you copied was substantial
and the proposal was funded by NSF in the amount of $20,000. Moreover, as documented in the
Investigative Report, this instance of plagiarism was not isolated, but, in fact, is part of a pattern
of plagiarism.


I, therefore, take the following actions:
       From the date of this letter until January 1, 2008, you are prohibited from serving as an
       NSF reviewer, advisor, or consultant.
       You are required to complete an ethics training course on plagiarism by December 31,
       2007. You must certify in writing to the OIG that such training has been completed.


Regulatory Basisfor Debarment
Pursuant to 45 CFR 620.800, debarment may be imposed for:
    (b) Violation of the terms of a public agreement or transaction so serous as to affect the
        integrity of an agency program, such as -
            (1) A willful failure to perform in accordance with the terms of one or more public
                agreements or transactions; or


            (3) A willful violation'of a statutory or regulatory provision or requirement
                applicable to a public agreement or transaction
In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 45 CFR 620.850. In this case, you knowingly plagiarized data
in connection with research funded, in part, by the Foundation. Thus, your actions support a
cause for debarment under 45 CFR 620.800(b).
                                                                                        Page 4


Procedures Governing Proposed Debarment and Appeal of Other Sanctions
The provisions of 45 CFR Sections 620.800 through 620.855 govern debarment procedures and
decision-making, and 45 CFR section 689.10 governs appeal procedures for all other sanctions.
Under our regulations, you have 30 days after receipt of this notice to submit, in person or in
writing, or through a representative, information and argument in opposition to the proposed
debarment andlor the other sanctions imposed. 45 CFR 620.860; 45 CFR 689.10. Comments
submitted within the 30-day period will receive full consideration and may lead to a revision of
the recommended disposition. If NSF does not receive a response to this notice within the 30-
day period, this debarment and the other sanctions will become final.
Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 420 1 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.




                                                   Sincerely,



                                                   Kathie Olsen
                                                   Deputy Director


Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
                                               NATIONAL SCIENCE FOUNDATION
                                                 '    4201 WILSON BOULEVARD
                                                     ARLINGTON, VIRGINIA 22230




                      OFFICE OF THE
                     DEPUTY DIRECTOR




                OVERNIGHT MAIL

                ~ r .                                                              MAY 2 5 2006
                Associate Professor




                           -
                t-
-- - - - - --                   --   - --- -                                -                    - - - - ----    - - -   - - - - _._




    .           ~-                                                                   -


                         Re: Debarment

                Dear Dr.

                On January 24,2006,.the National Science Foundation ("NSF") sent you a Notice of proposed
                Debarment in which NSF proposed to debar you from directly or indirectly obtaining thebenefits
                of Federal grants for a period of two years. Although the initial notice was returned, NSF sent a.
                second copy of this.Notice to you, which you received on March 26,2006. The Notice sets forth
                in detail the circumstances giving rise to NSF's decision to propose your debarment.
                Specifically, NSF indicated in the Notice that the proposed debarment is based upon your
                plagiarism of data incorporated into an NSF proposal. In that ~ o t i c eNSF
                                                                                         ,   provided you with
                thirty days to respond to the proposed debarment.

                Over thirty days have elapsed and NSF has.not received a response. . Accordingly, you are
                debarred until January 24,2008. Debarment precludes you from receiving Federal financial and
                non-financial assistance and benefits under non-procurement Federal programs and activities
                unless an agency head or authorized designee makes a determination to grant an exception in
                accordancewith 45 CFR Section 620.215. Non-procurement transactions include grants,
                cooperative agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees,
                subsidies, insurance, payments for specified use, and donation agreements..
     /
L ) ..;   In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
          the Federal Acquisition Regulations (''FAR") at 48 CFR Subpart 9.4 for the period of this
          debarment. 45 CFR Section 620.11O(c). During the debarment period, you may not have.
          supervisory responsibility, primary management, substantive control over, or critical influence
          on, ii grant, contact, or cooperative agreement with any agency of the Executive Branch of the
          Federal Government.
                                                          .   .


                    ~ , note that, in the Notice of Proposed Debarment, NSF also: (1) pohibited you from
          ~ a s t lplease                                                                                     . . .

           serving an NSF reviewer, advisor, or consult,antuntil January 1,2008; and (2) required you b           .   .

          .completean ethics training course on plagiarism by December 31,2007. These actions remain in
           effect.

          If you have any questions regarding the foregoing, please contact             , Assistant General
          Counpl, ~ a t i d d iScience
                               l       Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
          Room 1265, Arlington, Virginia, 22230,
            &          3   ?& v                 .   -9


                                                                  Sincerely,

                                                                  &LO&-
                                                                  Kathie L. Olsen
                                                                  Deputy Director
